September 23, 2002

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT 	 Audit Report – Costs Associated with the Hechinger and White Oak
          Facilities (Report Number CA-AR-02-003)

This report presents the results of our audit of costs associated with the Hechinger and
White Oak Facilities (Project Number 02XR004CA000). This audit was self-initiated to
verify the costs associated with the second tier of strategy for processing sanitized mail
and deploying irradiation equipment.

                                      Background
In October 2001, a letter containing anthrax was processed at the Trenton, New Jersey,
and the Brentwood Processing and Distribution Facilities. In response to this threat, the
Postal Service developed a strategy for processing sanitized mail and deploying
irradiation equipment that included: (1) the immediate sanitizing of mail at off-site
contracted facilities, (2) deploying eight irradiation systems for centralized processing
and decontamination of the mail, and (3) identifying detection equipment that could be
integrated into existing mail processes. This report addresses costs associated with the
second tier of strategy for processing sanitized mail and deploying irradiation
equipment. The strategy included acquiring two facilities; one designated to process
sanitized mail (Hechinger) and the other for operating the irradiation systems used to
sanitize contaminated mail (White Oak).

The use of the Hechinger and White Oak facilities was cancelled because of local
government officials’ resistance to using the two facilities for processing sanitized mail
and for deploying the irradiation equipment. As a result, the Postal Service invested
significant resources for building modifications, design fees, and real estate expenses
for two facilities that were never used. Additionally, deployment plans for
eight irradiation systems were put on hold until an alternate site could be located.

                      Objectives, Scope, and Methodology
Our objective was to verify costs associated with the second tier of strategy for
processing sanitized mail and deploying irradiation equipment. Specifically, we
reviewed the costs associated with the Hechinger and White Oak facilities. To validate



                                    Restricted Information
Costs Associated with the Hechinger and                                        CA-AR-02-003
 White Oak Facilities


these costs, we obtained and reviewed contract files and records from the Postal
Service Facilities Management System for Windows. Additionally, we reviewed
applicable policies, procedures, and headquarters directives related to the contracting
methods used by the Postal Service. Finally, we conducted field visits at headquarters
facilities and interviewed facilities contracting officers, project managers, and
Engineering personnel. The review was conducted from March 2002 through
September 2002, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our conclusions and observations with appropriate
management officials and included their comments, where appropriate.

                                    Prior Audit Coverage
Our March 29, 2002 audit report, Postal Service Strategy for Processing At-Risk Mail
and Deployment of Irradiation Equipment (Report Number AC-AR-02-003), disclosed
that the Postal Service’s strategy for processing contaminated mail and deploying
irradiation equipment was sufficient to protect the mail, customers, and employees.
However, the audit disclosed that three federal government agencies refused to
accept both sanitized and non-sanitized mail. In addition, the Postal Service was
unable to process sanitized mail and deploy irradiation equipment at the Hechinger and
White Oak facilities because it failed to get advance approval from local government
officials. We offered two recommendations to Postal Service management designed to
eliminate the backlog of sanitized mail and ensure that approvals are obtained from the
appropriate government officials prior to acquiring and or modifying facilities for
processing sanitized mail and deploying irradiation equipment. Management agreed
and the actions planned and taken were responsive to the issues identified in the report.

                                               Results

Actual Costs Expended for Facilities Not Used

Our review disclosed that costs associated with the second tier of strategy for
processing sanitized mail and deploying irradiation equipment at the Hechinger and
White Oak facilities were $588,632 and $56,625 respectively. In addition, $200,000
was authorized for the design of a prototype facility to irradiate mail.

The actual costs to design, retrofit, and restore the Hechinger and White Oak facilities
were as follows:




                                                     2
                                          Restricted Information
Costs Associated with the Hechinger and                                         CA-AR-02-003
 White Oak Facilities


Hechinger facility:

Licensing agreement                                  $116,751 (a)
Site support                                           16,082 (b)
Architect and engineer design fees                     35,864 (c)
Retrofitting                                          359,855 (d)
Restoration                                            47,480 (e)
Pylon sign                                             12,600 (f)

Total expense for Hechinger facility                  $ 588,632

White Oak facility:

Architect and engineer design fees                     $ 56,625 (g)

Total expended for both buildings                       $ 645,257

       (a) On November 2, 2001, the Postal Service entered into a 3-month licensing
           agreement to lease the Hechinger building located in Temple Hills, Maryland.
           The licensing agreement allowed the Postal Service to begin using and
           modifying the building prior to purchase. The licensing agreement was
           $38,917 per month.

       (b) These costs represent title insurance, legal, survey, and appraisal fees
           incurred in the attempt to purchase the Hechinger building.

       (c) The Postal Service entered into a contract with an architectural and
           engineering firm to prepare a statement of work to remodel the Hechinger
           building and to provide oversight of the construction contractor. This amount
           represents the total amount invoiced and paid for design work and oversight
           services for retrofitting and restoration.

       (d) To prepare the building for occupancy, the Postal Service contracted to have
           the building retrofitted. Authorization for this work was initially granted
           through issuance of work orders. The final negotiated cost of the construction
           contract was $359,855. All retrofitting work was completed prior to the
           termination of the license and purchase agreements.

       (e) One week after the start of remodeling, local government officials turned off
           utilities to the building because of concerns about bringing sanitized mail into
           their county. Consequently, the Postal Service terminated the licensing and
           purchase agreements and as a result incurred costs to restore the building
           back to its original condition. The total amount for restoration tasks
           completed was $47,480.




                                                     3
                                          Restricted Information
Costs Associated with the Hechinger and                                        CA-AR-02-003
 White Oak Facilities


       (f)	 Due to requirements stated in the licensing and purchase agreements, the
            Postal Service paid $12,600 to ensure original building signs were replaced.

       (g) The Postal Service hired an architectural and engineering firm to conduct a
           design concept study of the White Oak facility. However, Postal Service
           officials cancelled their plans to use the White Oak facility because they
           expected local government officials would have concerns similar to those
           associated with the Hechinger building. The Postal Service incurred
           architectural and engineering fees of $56,625 prior to cancellation of the plan.

       As shown, the Postal Service spent over $600,000 to prepare two facilities that
       were never used. These costs could have been avoided through proper
       coordination. In response to our March 29, 2002, report Postal Service
       management stated they will ensure that meetings with local government officials
       occur prior to signing an agreement to acquire or modify a facility for processing
       contaminated or sanitized mail. Therefore, we are making no recommendations
       at this time.

Architectural and Engineering Firm Developing Prototype Facility

In addition to the costs discussed previously and as a first step in identifying a location
to deploy irradiation systems, the Postal Service is working with an architectural and
engineering firm to design a prototype facility to irradiate mail. The contractor submitted
an initial proposal of $491,000 for this service. The Postal Service authorized $200,000
to start this work and is in the process of negotiating a final statement of work and work
order price. Total costs incurred to date for this service are $28,958.

Recommendation

We recommend the vice president, Facilities:

   1.	 Ensure program managers provide adequate oversight and approval of
       statements of work and actual work performed for the design and construction of
       the prototype facility to decrease the potential for unanticipated cost growth.

Management’s Comments

Management agreed with the summary of expenditures and our recommendation and
stated that they will continue to provide adequate oversight for this and other projects.
Management also stated that the report does not consider the circumstances
surrounding the expenditures and suggested that it be revised to reflect this.
Specifically, they advised that the professional costs of $56,625 expended at the White
Oak facility were a necessary and appropriate part of the due diligence taken on a high
priority basis. They also provided detail on actions taken on the Hechinger project and




                                                     4
                                          Restricted Information
Costs Associated with the Hechinger and                                        CA-AR-02-003
 White Oak Facilities


maintained that it was managed in the best interests of the Postal Service.
Management’s comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

In the Office of Inspector General’s opinion, management’s planned actions should
correct the problem or resolve the issues identified in the report. Therefore, no further
actions are required.

We appreciate management’s comments regarding the circumstances surrounding the
expenditures. However, our objective was only to report an accurate summary of the
costs associated with the second tier of strategy for processing sanitized mail and
deploying irradiation equipment. Therefore, our report will not be revised to discuss the
circumstances surrounding the expenditures.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Lorie Siewert, director, Contracts and Facilities,
at (651) 855-5856 or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc:	 Patrick R. Donahoe
     Keith Strange
     Susan M. Duchek




                                                     5
                                          Restricted Information
Costs Associated with the Hechinger and                            CA-AR-02-003
 White Oak Facilities


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                     6
                                          Restricted Information
